0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, here by certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Brad Martin, in his individual capacity
and as an employee of the Arizona Department of
Public Safety; State of Arizona v. Carlos Castro, were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent Next Day Service and e-mail to
the following parties listed below, this 7th day of
October, 2021:
James M. Cool
Honor Law Group, PLLC
1850 N. Central Avenue
Suite 1150
Phoenix, AZ 85004
602-282-0223
cool@aztrialattorneys.com
Benjamin Leigh Rundall
Honor Law Group, PLLC
4450 S. Rural Road
Suite C-220
Tempe, AZ 85282
602-282-0223
rundall@honorlawgroup .com
Scott Andrew Ewing
Law Office of Scott A. Ewing, PLC
5151 E. Broadway Boulevard
Suite 1600
Tucson, AZ 85711
520-528-1040
scott@saewing.com
scottewingesq@gmail.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Tiniothy J. Berg
Counsel of Record
Bradley J. Pew
Brett C. Gilmore
Tyler Carlton
Fennemore Craig, P.C.
2394 E. Camelback Rd.
Suite 600
Phoenix, AZ 85016
602-916-5421
tberg@fennemorelaw.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
:foregoing is true and correct. This Certificate is
executed on October 7, 2021.

Becker Gallagher egal Publis
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001

, Inc.

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

c/v?v {J.

Notary Public

r,

OlJd1

,ts~

{J~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission ExpirLs
r-ebn IEc'V 1.1. ?' 3

